January 18, 2013

TO:            Elizabeth A. Fowler
               Chief Financial Officer
               Indian Health Service


FROM:          /Gloria L. Jarmon/
               Deputy Inspector General for Audit Services


SUBJECT:       Independent Attestation Review: Indian Health Service Assertions Concerning
               Drug Control Accounting for Fiscal Year 2012 (A-03-13-00355)


This report provides the results of our attestation review of the Indian Health Service (IHS) fiscal
year (FY) 2012 assertions concerning drug control accounting and the accompanying table of
FY 2012 Drug Control Obligations (Table).

Each National Drug Control Program agency must submit to the Director of the Office of
National Drug Control Policy (ONDCP), not later than February 1 of each year, a detailed
accounting of all funds expended by the agency for National Drug Control Program activities
during the previous FY (21 U.S.C. § 1704(d)(A)). The section further requires that the
accounting be “authenticated by the Inspector General for each agency prior to submission to the
Director.” The report and related assertions are the responsibility of IHS’s management and
were prepared by IHS as specified in section 6 of the ONDCP Circular entitled Drug Control
Accounting, dated May 1, 2007.

As required by the Federal statute (21 U.S.C. § 1704(d)(A)), we reviewed the attached IHS
report entitled “Assertions Concerning Drug Control Accounting” dated November 9, 2012. We
conducted our attestation review in accordance with attestation standards established by the
American Institute of Certified Public Accountants and the standards applicable to attestation
engagements contained in Government Auditing Standards issued by the Comptroller General of
the United States. A review is substantially less in scope than an examination, the objective of
which is to express an opinion on management’s assertions contained in its report; accordingly,
we do not express such an opinion.

INDIAN HEALTH SERVICE REPORT

IHS reported obligations totaling $91,578,813.
Page 2 – Elizabeth A. Fowler


In accordance with ONDCP requirements, IHS made the following assertions:

   •   IHS reported its actual obligations from its accounting system of record for the reported
       budget decision units,

   •   IHS’s drug methodology used to calculate obligations of prior-year budgetary resources
       by budget decision unit were reasonable and accurate in accordance with the criteria in
       section 6(b)(2) of the ONDCP Circular,

   •   the drug methodology that IHS disclosed in its report was the actual methodology used to
       generate the required Table,

   •   IHS did not revise its financial plan and therefore had no budgetary transfers of
       obligations to report, and

   •   IHS did not have any Fund Control Notices under 21 U.S.C. § 1703(f) to report.

We performed review procedures on IHS’s assertions and the accompanying Table. In general,
we limited our review procedures to inquiries and analytical procedures appropriate for the
attestation review.

OFFICE OF INSPECTOR GENERAL CONCLUSION

Based on our review, nothing came to our attention that caused us to believe that IHS’s
assertions and the accompanying Table were not fairly stated, in all material respects, based on
the ONDCP Circular.

                                            ********

Although this report is an unrestricted public document, the information it contains is intended
solely for the information and use of Congress, ONDCP, and IHS and is not intended to be, and
should not be, used by anyone other than these specified parties. If you have any questions or
comments about this report, please do not hesitate to call me, or your staff may contact Kay L.
Daly, Assistant Inspector for Audit Services, at (202) 619-1156 or through email at
Kay.Daly@oig.hhs.gov. Please refer to report number A-03-13-00355 in all correspondence.


Attachment
ATTACHMENT
                                                                                        ATTACHMENT
                                                                                        Page 1 of 4
   DEPARTMENT OF HEALTH &. HUMAN SERVICES                                            Public Health Service


                                                                                     Indian Health Service
                                                                                     Rockville MD 20852


                                            November 9, 2012

MEMORANDUM TO:                   Director
                                 Office of National Drug Control Policy

THROUGH:                         Sheila Conley
                                 Deputy Assistant Secretary of Finance
                                 Department of Health and Human Services

FROM:                            Elizabeth A. Fowler
                                 Chief Financial Officer
                                 Indian Health Service

SUBJECT:                         Assertions Concerning Drug Control Accounting


In accordance with the requirements of the Office of National Drug Control Policy Circular Drug Control
Accounting, I make the following assertions regarding the attached annual accounting of drug control
fund s for the Indian Health Service (I HS):

Obligations by Budget Decision Unit

I assert that obligations reported by budget decision unit are the actual obligations from the bureau 's
accounting system of record for these budget decision units, consistent with the drug budget methodology
discussed below.

Drug Metbodology

I assert that the drug methodology used to calculate obligations of prior year budgetary resources by
function for all bureaus was reasonable and accurate in accordance with the criteria listed in Section 6b(2)
of the Circular. In accordance with these criteria, I have documentedJidentified data which support the
drug methodology, explained and documented other estimation methods (the assumptions for which are
subjected to periodic review) and determined that the financia l systems supporting the drug methodology
yield data that present fairly, in all material respect, aggregate obligations from which drug-related
obli gation estimates are derived .

The IHS methodology for estimating the drug control budget was established using the amounts
appropriated for the Alcohol and Substance Abuse Prevention programs authorized under P.L. 102-573 ,
the Indian Health Amendments of 1992. See attached table "Alcoholism and Substance Abuse Treatment
and Prevention Program autJlOrized under P.L. 102-5 73 " for list of program s. This table reflects
estimated amounts. When originally authorized and appropriated, the fund s were allocated to tribes in
their self-determination contract by specific programs. However, when the program s were reauthorized
and captured under public law 102-573, some IHS area offices allocated the funds in lump sum while
others maintained the specific program breakout. Therefore, at the current time precise amounts of
funding for each program are not available. The table is maintained to estimate current funding level and
is the basis of the drug budget control methodology. Excluded is the amount for the Adult Treatment
programs, which represents the original authorization for IHS to provide alcohol treatment services. The
focus on alcoholism treatment is the reason for the exclusion .
                                                                                            ATTACHMENT
                                                                                            Page 2 of 4




Page 2 - Director, Office of National Drug Control Policy

Drug Resources by Decision Unit: The IRS drug control funds are appropriated in two budget line items:
 I) Alcohol and Substance Abuse and 2) Urban Indian Health Programs (UlHP). The Alcohol and
Substance Abuse funds are primarily allocated to Tribes under Self-Determination contracts and
compacts, where they manage the programs and have authority to reallocate funds to address local
priorities. The portion oftbe alcohol fund included in the drug control budget methodology is as
described above, i.e. , the entire budget excluding the amount for adult treatment. The Urban Indian
Health Program funds are allocated through contracts and grants to 501 (c)(3) organizations. The portion
ofUIHP funds included in the drug control budget methodology is for NIAAA programs transferred to
the IRS under the UIHP budget.

Drug Resources by Function: Under the methodology, two programs through FY 2007 were identified as
Prevention programs, Community Education and Training and Wellness Beyond Abstinence. In FY
2008, one half of the new funds appropriated for Methamphetamine and Suicide prevention and treatment
were also included in the Prevention function. The treatment function comprises the remaining program
excluding adult treatment. In addition, the amount ofUIHP funds is included under the treatment
function.

Application of Drug Methodology

I assert that the drug methodology disclosed in this section was the actnal methodology used to generate
the table required by Section 63 of the Circular.

Reprogramming or Transfers

IHS did not reprogram or transfer any funds included in its drug control budget.

Funds Control Notices

IHS was not issued any Fund Control Notices by the Director under 21 U .S.c. 1703 (I) and Section 8 of
the ONDCP circular Budget Execution, dated May 1, 2007.

                                                             ~oJ2ct;l1       a,-::tvw ~
                                                            Elizabeth A. Fowler

Attachments: I
I. 	 Table - Alcoholism and Substance Abuse Prevention Treatment Program Authorized Under P.L. 102­
      573
2. 	 Table - FY 2012 Drug Control Obligations

I The ftfst table attached to this report is necessary for understanding the lHS drug control budget methodology.
The table titled "Alcoholism and Substance Abuse Treatment and Prevention Program Authorized Under P.L. 102­
573" shows the Alcohol and Substance Abuse budget line item broken out by the activities authorized originally in
P.L. 100-690 and later included under P.L. 102-573. This table also includes the funding within the Urban Indian
Health budget line item that supports alcohol and substance abuse treatment services. However, funds are not
appropriated or accounted for by these specific categories, but rather as the lump sum funds of Alcohol and
Substance Abuse and Urban Health. The second table shows the obligations of these funds as required by the Office
oCNational Drug Control Policy Circular Drug Control Accounting.
                                                                                                                               ATTACHMENT
                                                                                                                               Page 3 of 4
                                                       Indian Health Service
                                            Alcoholism and Substance Abuse Prevention
                                                        Treatment Program
                                                          Authorized under P.L. 102-573
                                                                  (Dollars in Thousands)



                                           FY 2008         FY 2009             FY 2010         FY 2011          FY 2012          Dnug Control &
Amount of Funds                            Enacted         Enacted             Enacted         Enacted          Enacted          Moyer Reports

ALCOHOL & SUBSTANCE ABUSE

Adult Treatment..                            $89,161         $96,607            $102,748        $102,781         $102,731           Excluded'
                                                                        21
Regional Treatment Centers                   $23,403         $19,957             $21,226         $21,226          $21,215           Treatment
Community Education &
 Training ..                                   $8,282         $8,974              $9,544           $9,544          $9,540          Prevention
Community Rehabilitation!
 Aftercare ..                                $26,903         $29,150             $31,003          $31,003         $30,988           Treatment
Gila River..                                    $206            $223                $237             $237            $237           Treatment
Contract Health Service..                     $9,471         $10,262             $10,914          $10,914         $10,909           Treatment
Navajo Rehab. Program ..                        $365            $395                $420             $420            $420           Treatment
Urban Clinical Services..                       $776            $841                $895             $895            $894           Treatment
Well ness Beyond
 Abstinence ..                                  $894            $969              $1,031           $1,031          $1,031          Prevention
Meth Prey & Treatment..                      $13,782         $16,391             $16,391          $16,358         $16,332       50/50 Tx & Prey

Total..                                 ____ ~_!r~,~±~. ___~!~_3,,!..~~_ ___~!!I_'!.±Q~______ J1_~~,~Q!I______ J)_~~,~!I!.:

URBAN HEALTH PROGRAM               1/


                                           FY 2008         FY 2009             FY 2010          FY 2011         FY 2012
Amount of Funds                            Enacted         Enacted             Enacted          Enacted         Enacted

Expand Urban Programs..                        $3,407         $4,356              $4,239           $4,403          $4,403           Treatment
                                        -------------_. ------------­        ._-----------­   ------------­   ------------_.

INDIAN HEALTH FACILITIES           31


                                           FY 2008         FY 2009             FY 2010          FY 2011         FY 2012
Amount of Funds                            Approp          Approp              Approp           Approp          Approp

Construction ..                                      o              o                   o                o         $1,997



Alcohol/Substance Abuse                    $173,243        $183,769            $194,409         $194,409        $194,297
Urban Health Program                          3,407           4,356               4,239            4,403           4,403
Facilities Construction                              o              o                   o                o         1,997
GRAND TOTAL.................. .            $176,650        $188,125            $198,648         $198,812        $200,697




  1/The Urban Program was funded under P.L. 100-690, and is now funded under P.L. 102-573.
21  The FY 2009 funding for the Regional Treatment Centers was adjusted based on Area Office reports offunding levels.
:;; FY 2012 Indian Health Facilities funds are to initiate the design/site grading for the Southern California Youth Regional Treatment Center (YRTC)


*Adult Treatment funds are excluded from the ONDCP Drug Control Budget and Moyer Anti-Drug Abuse methodologies because this program
reflects the original authorized program for IHS with the sole focus of alcoholism treatment services for adults. This determination was made in
consultation with ONDCP vvhen the drug control budget was initially developed in the early - 1990s.
                                                                 ATTACHMENT
                                                                 Page 4 of 4



                   INDIAN HEALTH SERVICE 

               FY 2012 Drug Control Obligations 





                                                        ($000)
                                      Enacted       Obligated
Drug Resources by Function
 Prevention 
                            $18,736     $15,988
 Treatment 
                             $77,233     $74,381
 Construction 
                           $1,997      $1,209
                                         $97,966     $91,578

Drug Resources by Decision Unit
 Alcohol and Substance Abuse             $91,566     $85,966
 Urban Indian Health Program              $4,403      $4,403
 Facilities Construction                  $1,997      $1,209
                                         $97,966     $91,578
